                           U.S. NUCLEAR REGULATORY COMMISSION

                                                                                   NUREG/BR-0304—August 2003

                                                                                   Volume 1, Number 1




                        OIG Information Digest
  Inside this issue:
                                 Introduction
  Introduction             1
                                 The Inspector General’s Office has        •   Scams that can affect your personal
                                 renamed this publication from OIG             life,
  Use of the Internet      1-3   Fraud Bulletin to OIG Information Di-     •   More information on identity theft,
                                 gest. This change reflects that we        •   How to protect yourself and your
                                 have broadened the scope of the               home,
  NRC Employees and      4
  Contractors Using Com-         publication to include topics beyond      •   Trends of our current and past in-
  puters to Download             the subject of fraud.                         vestigations, and
  Pornography                                                              •   Summaries of some of the more
  Beware of Travel Fraud   4-5   In this and future issues, topics may         prevalent cases of wrongdoing that
                                 include:                                      occur within NRC and other agen-
                                                                               cies.
  OIG Audit Program        5     •   The operation and purpose of this
                                     office,                               We hope this information will prove
                                 •   Audits and investigations of inter-   valuable to you in your professional and
  OIG Investigative Pro-   7
  gram                               est,                                  personal life.
                                 •   Do’s and don’ts in the workplace,


                                 Use of the Internet
                                 The use of the Internet in     has replaced the tele-
                                 the workplace and associ-      phone as the primary
                                 ated privacy concerns rep-     and preferred method of
 Special points of               resent one of the more         business communication
    interest:                    troubling issues of our        for those with Internet
                                 time. While the Internet is    access.1
• Audit News
                                 fast and inexpensive, Inter-
• Investigative News             net usage can pose signifi-    The Internet provides
                                 cant risks if it is not man-   computer access to an
• Do’s and Don’ts Concerning     aged or is abused. The         ever-expanding store-        ties. However, along
  Internet Use                   various forms of Internet      house of electronic infor-   with tremendous ad-
                                 activity have become in-       mation through the mass      vantages, the Internet
                                 grained in most corporate      connection of networked      provides access to a
                                 cultures. Today, roughly 90    computers. Use of the        wide variety of informa-
                                 million business workers in    Internet offers tremen-      tion that may not be
                                 the United States (about       dous capabilities to em-     consistent with busi-
                                 two-thirds of all workers)     ployees in terms of ac-      ness needs and may
                                 and about 120 million          cess to a wide variety of    be harmful or inappro-
                                 workers outside the U.S.       information sources rele-    priate for the work
                                 use the Internet. E-mail       vant to their official du-   place. Abuse, misuse,
Page 2                                                                                          OIG Information Digest




Internet Use        (cont. from page 1)


and overuse by employees can in           more than three-quarters of major
                                          U.S. firms (almost 78 percent) re-    use does not interfere with offi-
egregious cases:
                                                                                cial business and involves mini-
• Leave employers vulnerable              cord and review employee com-
                                          munications and activities on the     mal or no additional expense to
   to lawsuits (downloading of
                                          job, including Internet use. This     the Government. This limited
   sexually explicit material has
                                          figure has doubled since 1997.        personal use is to be performed
   been viewed as creating a
                                          Based on                              on the employee’s non-work
   hostile work environment);
                                                                                time. The policy also outlines
• Introduce various security is-          recent Gov-
                                          ernment au-                           the following inappropriate per-
   sues, such as the release of
                                          dit reports,                          sonal uses of Government of-
   confidential, proprietary, or
                                          there is                              fice equipment:
   otherwise sensitive informa-
   tion, or a download of unli-           compelling
                                          evidence of                           •   Any personal use that could
   censed software or viruses;
                                                                                    cause congestion, delay, or
• Cause a decline in employee             the same
                                          need for                                  disruption of service to any
   productivity; and
                                          surveillance in the Federal Gov-          Government system or
• Strain network resources.                                                         equipment;
                                          ernment.
Implementing a comprehensive
Internet usage policy clarifies us-       A Privacy Foundation
                                          study found that many                      • Downloading of mali-
age guidelines and directives de-
                                          employers regularly                        cious files and vulnerable
signed to inform and educate em-
ployees about proper practices            monitor employee e-mail       When users log into NRC’s LAN they
with regard to Internet activity.         and Web surfing.4 Moni-       see the following language:
                                          toring refers to the man-
Organizations also adopt techni-          agement policies, proc-       !USE OF THIS COMPUTER
cal measures, including:                  esses, and supporting         CONSTITUTES A CONSENT TO
                                          technology for ensuring       MONITORING.
1) Tools to monitor Internet activ-       compliance with organ-
ity to enforce policy and identify        izational and agency pri-     Anyone who violates security
offenders,                                vacy guidelines and the       regulations or makes unauthorized use
                                          ability to exhibit due dili-  of Federal computer systems is subject
2) Antivirus utilities to protect         gence. Monitoring also        to criminal prosecution and/or
                                          refers to the conduct of      disciplinary action.
against malicious code at all po-
tential points of infection,              internal and external in-
                                          dependent reviews and
3) Secure e-mail solutions to pro-        audits to ensure compli-
                                          ance with legislation and regula-          software, and the download
tect information traveling across                5
                                          tions. The study estimated that            and use of unlicensed soft-
the Internet, and
                                          14 million employees were under            ware;
4) Archiving utilities and storage        continuous Internet or e-mail
                                          monitoring using commercially          • The creation, downloading,
systems to ensure that messages
                                          available software.                        viewing, storage, copying, or
are deleted or retained as appro-
                                                                                     transmission of sexually ex-
priate.2
                                          Currently, practice is that Federal        plicit or sexually oriented
                                          employees are permitted limited            materials,
A recent American Management
Association survey3 found that            personal use of the Internet if the
                                                                                 • The creation, downloading,
                                                                                                                         Page 3




Internet Use          (cont. from page 2)

     viewing, storage, copying, or              ganization’s Internet systems
     transmission of materials re-              are to be used strictly as
     lated to illegal gambling, ille-           business communication
     gal weapons, terrorist activi-             tools;
     ties, or any other illegal ac-
     tivities otherwise prohibited.6        •   Review the written ePolicies
                                                with every employee;
Private industry also uses mod-
els for Internet usage. The                 •   Incorporate the policy into
ePolicy Institute has developed                 employee handbooks;
a sample employee Internet us-
age policy. Covered employees               •   Address ownership
sign a statement that acknowl-                  issues and privacy
edges that they have read and                   expectations; and                 NRC Management Directive 2.7
agree to abide by the Internet
                                                                                  contains the NRC’s guidelines for
policy as consideration for con-            •   Require that each                 employees’ personal use of
tinued employment.                              employee reads,                   information technology.
                                                signs, and dates a
The ePolicy Institute also devel-               hard copy of the pol-             The Directive outlines the conditions
oped Do’s and Don’ts to help                    icy.                              under which employees may and may
employers decide what is an ac-                                                   not use the agency’s information
ceptable risk for the organiza-             The Don’t list includes:              technology capabilities.
tion.
                                            •   Don’t rely solely on
The Do list includes:                           e-mail to communi-
                                                cate the ePolicies;
•    Establish comprehensive,
     written ePolicies that ad-             •   Don’t expect em-
     dress employee use of e-                   ployees to train
     mail, the Internet, and soft-              themselves on the
     ware;                                      policies.7

•    Communicate that the or-

Sources of Information

1.   E-mail and Internet usage policy statistics developed by industry analyst Jonathan Penn for the infoshop.com. (September
     17, 2001).
2.   Internet information provided by Jonathan Penn, industry analyst for the-infoshop.com Web site (September 17, 2001).
3.   American Management Association’s 2002 Survey on Workplace Monitoring and Surveillance (August 2001).
4.   Workplace Surveillance Project of the Privacy Foundation, a research group based at the University of Denver, conducted
     this study in July 2001.
5.   This definition is offered by Robert Parker in an article for the Information Systems Control Journal (September 2001).
6.   “Limited Personal Use” of Government office equipment recommended by the Federal CIO Council in May 1999.
7.   These examples come from the ePolicy Handbook published by the ePolicy Institute in 2001.
Page 4                                                                              OIG Information Digest




NRC Employees and Contractors Using Computers to Download Pornography
In June 2002, OIG pub-                        It was determined that in      under investigation by OIG.
lished a Fraud Bulletin                       some cases hundreds of
dedicated to the use of                       hours were logged into         The time each individual was sus-
information technology                        pornographic sites.            pended without pay varied from
in the workplace. In                                                         10 to 45 days.
that issue, descriptions                       NRC employees and con-
were provided regard-                          tractors continue to use      The audit component of OIG has
ing the proper and improper use       NRC computers to view and              another initiative underway to de-
of telephones, pagers, fax ma-        download material from porno-          termine the extent of Internet use
chines, photocopiers, e-mail,         graphic sites. Subsequent to the       by NRC employees.
computers, and the Internet.          publication of that audit report,
                                      30 cases have been investigated        NRC contractors may not use
Of particular note was the con-       resulting in 8 suspensions for a       Government computers for any
cern that NRC employees were          total of 251 calendar days of lost     personal reasons, including to ac-
using the Internet to view sites of   time and lost salaries of approxi-     cess the Internet or to communi-
a pornographic nature. Manage-        mately $62,124. In addition,           cate via e-mail.
ment Directive 2.7 strictly prohib-   seven individuals either resigned
its the use of NRC computers to       or were terminated rather than         It is important to remember that
view or download this type of ma-     face administrative action. Three      NRC computers are NEVER to be
terial.                               cases resulted in reimbursement        used for illicit or illegal purposes.
                                      for time used on the computer by       To do so can place an employee
OIG performed an audit in June        contractors, four cases are cur-       in the position of facing significant
2001 of Internet usage over an        rently pending NRC management          disciplinary action.
8-day period during that month.       action, and seven cases are still


Beware of Travel Fraud (Article from the National Consumers League)
The prospect of getting away to a      Know exactly what’s included.         specific company and that the
warm romantic island or visiting a     A “free” or incredibly cheap trip     costs are higher than they would
foreign country is extremely ap-       may have hidden costs. For ex-        be if you used your own travel
pealing. But what may seem to be       ample, the cruise may be free,        agent or made the arrangements
a bargain may in fact be a night-      but you have to pay to fly to the     yourself. Alternatively, the offer
mare.                                  departure point and stay in a ho-     may be valid only if you bring a
Be skeptical of offers for “free”      tel at your own expense. Or you       companion along at full fare.
trips. Airlines and other              may have to endure a long, high-      Be aware of restrictions. Often
well-known companies                            pressure sales pitch for a   the best travel deals are available
sometimes operate contests                      timeshare or travel club     only for off peak times, not during
for travel prizes. However,                     membership as part of        school vacations, holidays, or
there are also companies                        the trip.                    other popular
that offer “free” trips to try to               Realize that the deal        travel dates. You
lure people into buying their                   may not be as good as        may find it hard to
products or services. It’s                      you think. You may find      get the promised
never “free” if you have to pay        that a travel offer requires you to   price for the dates
something.                             make reservations through a           that you want to
                                                                                                                Page 5




Travel Fraud         (cont. from page 4)


travel or there may be no space            such as newspapers, books, and        self by paying with a credit card
available on those dates at all.           the Internet. You may be able to      so you can dispute the charges if
Confirm the arrangements. If               get the trip you want for far less    the promises aren’t kept.
transportation and hotel are in-           than the “bargain” price a
cluded in the travel package, ask          company is offering.
how to contact those companies       Pay with a credit card.
and confirm with them directly that  Fraudulent travel opera-
the reservations have been made.     tors take the money and
Do your own travel research. It’s run and even legitimate
easy to get information from a local companies can suddenly
travel agent and other sources       go out of business. Protect your-

OIG Audit Program
Recently Completed Audits                  oversight can be improved, in-        Audits in Progress
                                           cluding (1) guidance for inspec-
Audit of NRC’s Regulatory Over-            tion followup items, (2) operating    Internet Follow Up - The objec-
sight of Special Nuclear Materials         plans, (3) information available      tive of this audit is to determine
(OIG-03-A-15), May 23, 2003                to the public, and (4) documen-       how newly implemented controls
                                           tation for refresher and continu-     affect use of the Internet.
OIG found that NRC’s current lev-          ing inspector training.
els of oversight of licensees’ ma-                                               Review of NRC's Personnel Se-
terial control and accounting              Memorandum Report: Review             curity Program - The objective of
(MC&A) activities do not provide           of NRC=s Purchase Order Proc-         this audit is to evaluate NRC’s
adequate assurance that                          essing (OIG-03-A-17)            access and clearance process
all licensees properly con-                                                      for employees and contractors
trol and account for spe-                           The Division of Contracts    and whether the program is ef-
cial nuclear material. Spe-                         and the Division of Finan-   fectively managed.
cifically, NRC performs                             cial Services have non-
limited inspections of licen-                       integrated computer sys-     Audit of NRC's Contract Admini-
sees’ MC&A activities and                           tems and agency pro-         stration Practices - The objective
cannot assure the reliability of the       gram offices have their own of-       of the audit is to review the econ-
Nuclear Materials Management               fice-specific invoice tracking sys-   omy, efficiency, and effective-
and Safeguards System data.                tems, all of which require entry      ness of the management con-
                                           of the same or similar informa-       trols included in the NRC's con-
NRC’s Oversight of Research and            tion. Both organizations are          tract administration program.
Test Reactors (OIG-03-A-16),               currently working together to de-
June 5, 2003                               velop an E-Procurement system.        Audit of NRC's FY 2003 Finan-
                                           Close intra-agency coordination       cial Statements - The objective
The OIG determined that NRC’s              is needed to ensure that this ini-    of the audit is, in part, to evalu-
oversight of research and test re-         tiative, as well as process im-       ate internal controls, and review
actors was meeting NRC’s expec-            provements in the commercial          compliance with applicable laws
tations, however, some aspects of          payments area, are successful.        and regulations.
Page 6                                                                           OIG Information Digest




The Audit Program
Audit of NRC's Protection of           Independent Auditor’s Report          costs, which is failure to comply
Safeguards Information - The                                                 with the requirements of the
objective of this audit is to deter-    Closeout Audit of GSE Power          Federal Acquisition Regulations
mine whether                            Systems, Inc. (OIG-03-A-19)          (FAR) 52.215-2, Audit Re-
NRC adequately                                                               cords—Negotiation, which is in-
defines what con-                        This report reflects the results    corporated in the contract by ref-
stitutes safe-                           of a review to determine the        erence. The audit also recom-
guards informa-                          allowability and allocability of    mended disallowance of some
tion, ensures its                        the direct and indirect costs       contract costs.
protection, and                          claimed in the closeout docu-
prevents inappro-                        ments. The audit disclosed
priate release to                      that GSE did not maintain suffi-
unauthorized individuals.              cient reports to support contract


 OIG Investigative Program
  Inappropriate Handling of an         As a result of the investigation,    was not excluded by NRC staff
  Enforcement Action by Region         OIG determined that because          from participating in NRC en-
  III                                  the licensee admitted violating      forcement proceedings because
                                       NRC regulations pertaining to        no formal enforcement meetings
  OIG conducted an investigation       prohibited employment discrimi-      took place. In addition, OIG
  into several concerns about the      nation, NRC exercised enforce-       found that on October 3, 2002,
  handling of an enforcement ac-       ment discretion and settled the      NRC issued a Confirmatory Or-
  tion related to prohibited em-       matter prior to holding an en-       der to Exelon which confirmed
  ployment discrimination by Ex-       forcement conference. OIG            the licensee’s commitment to
  elon Nuclear Generation Com-         learned that while settlement of     train its managers at all Exelon
  pany, an NRC licensee. It was        an enforcement action prior to       plants concerning NRC require-
  alleged that (1) NRC erred in                          holding an en-     ments related to maintaining a
  settling the enforcement action                        forcement con-     safe work environment.
  in that the action violated                            ference is un-
  NRC’s enforcement policy and                           usual, this ac-
  (2) NRC ignored findings that                          tion was coor-
  an Exelon manager deliber-                             dinated with
  ately discriminated against an                         NRC’s Office of
  employee for engaging in a                             the General
  protected activity. In addition,                       Counsel and
  it was alleged that NRC con-         the Office of the Executive Di-
  ducted closed meetings with          rector for Operations. Addition-
  Exelon to discuss a settlement       ally, OIG found that the settle-
  of NRC’s enforcement action          ment did not violate NRC’s En-
  without the knowledge of the         forcement Policy, as the En-
  employee’s attorney and con-         forcement Policy is silent regard-
  trary to promises made by            ing the timing of negotiated set-
  NRC.                                 tlements. OIG also found that
                                       the Exelon employee’s attorney
Page 7                                                                                  OIG Information DigestPage   7




OIG Investigative Program           (cont. from page 6)

Fraud by NVT Involving NRC            fire sprinkler systems at NRC                   indictments against the NVT
Custodial Contract                    headquarters buildings between                  project manager and NVT
                                      February 2000 and January                       were subsequently dismissed
OIG conducted an investigation        2001. These entries made it ap-                 in lieu of a civil settlement by
into information provided by a        pear that this safety equipment                 the U.S. Attorney’s office.
former Nguyen Van Thanh Tech-         was tested, as required by the
nologies (NVT) employee al-                             NRC contract,
leging that NVT failed to                               when in fact
meet several contract re-                               such testing had
quirements involving preven-                            not occurred.
tive maintenance. NVT had
a 5-year building mainte-                              In March 2002,
nance contract with NRC in                             the project man-
the amount of $5 million.                              ager for NVT
                                      and the corporation were in-
As a result of the investigation,     dicted by a Federal Grand Jury
OIG found that the NVT project        in the Southern District of Mary-
manager for the NRC contract          land on 12 counts of violation of
instructed the former NVT em-         Title 18 United States Code
ployee to falsify entries in gen-     (USC), Section 1001, False
erator and fire pump log books        Statements, and 18 USC, Sec-
for the emergency lighting and        tion 2, Aiding and Abetting. The




                                                                         Organization
                                                          U.S. Nuclear Regulatory Commission
                                                          Office of the Inspector General
                                                          11545 Rockville Pike
                                                          Rockville, MD 20851

                                                          Hotline Number—800-233-3497
                                                          Fax - 301-415-5091


           We’re on the WEB!
          Access the HOTLINE
         Thru the NRC Website!
